                                                                    C-IN-BOR-0094-2002

            United States Department of the Interior
                             Office of Inspector General
                                   Washington, D.C. 20240




                                                                         February 21, 2003


Memorandum

To:        Commissioner, Bureau of Reclamation

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Independent Auditors’ Report on the Bureau of Reclamation’s Financial
           Statements for Fiscal Years 2002 and 2001 (No. 2003-I-0020)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Bureau of Reclamation’s (BOR) financial statements as of September 30,
2002 and for the year then ended. The contract required that KPMG conduct its audit in
accordance with the Comptroller General of the United States of America’s Government
Auditing Standards, the Office of Management and Budget’s Bulletin 01-02 Audit
Requirements for Federal Financial Statements, and the General Accounting
Office/President’s Council on Integrity and Efficiency’s Financial Audit Manual.

        In its report (Attachment 1), KPMG issued an unqualified opinion on BOR’s
financial statements. KPMG identified seven reportable conditions related to the
following internal control areas and financial operations: (1) land inventory, (2) security
and internal controls over information technology systems, (3) construction-in-progress
and structures and facilities accounts, (4) accrued liabilities, (5) revenue cut-off, (6)
quality control program, and (7) accounting for intra-Departmental transactions. KPMG
considers the reportable condition related to land inventory to be a material weakness.
With regard to compliance with laws and regulations, KPMG found BOR noncompliant
with portions of the Federal Financial Management Improvement Act (FFMIA).
Specifically, BOR’s financial management systems did not substantially comply with
Federal financial management systems requirements and the Federal accounting
standards.

        In connection with the contract, we monitored the progress of the audit at key
points, reviewed KPMG’s report and selected related working papers, and inquired of its
representatives. Our review, as differentiated from an audit in accordance with the
Government Audit Standards, was not intended to enable us to express, and we do not
express, an opinion on the BOR’s financial statements, conclusions about the
effectiveness of internal controls, conclusions on whether BOR’s financial management
systems substantially complied with the three requirements of FFMIA, or conclusions on
compliance with laws and regulations. KPMG is responsible for the auditors’ report and
for the conclusions expressed in the report. Our review disclosed no instances where
KPMG did not comply in all material respects with the Government Auditing Standards.

       In the January 15, 2003 response to the draft report from the Commissioner, BOR,
(Attachment 2) BOR concurred with Recommendations A through G. BOR did not
concur that it was in noncompliance with the Federal Financial Management
Improvement Act of 1996, specifically with the Federal accounting standards. However,
BOR has implemented a plan to correct the deficiencies noted. Based on the response, all
seven recommendations are considered resolved but not implemented. The seven
recommendations will be referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation.

Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.



Attachments
                                                                                       ATTACHMENT 1


                15 W. South Temple, Suite 1500                            Telephone 801 333-8000
                Salt Lake City, UT 84101




                                         Independent Auditors’ Report


Commissioner of the United States Bureau of Reclamation and Inspector General
United States Department of the Interior:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the Interior,
Bureau of Reclamation (Reclamation) as of September 30, 2002 and 2001, the related consolidated
statements of net costs for the years then ended, and the related consolidated statement of changes in net
position, combined statement of budgetary resources, and consolidated statement of financing for the year
ended September 30, 2002 (hereinafter referred to as the consolidated financial statements). The objective
of our audits was to express an opinion on the fair presentation of these consolidated financial statements.
In connection with our audits, we also considered Reclamation’s internal control over financial reporting
and tested Reclamation’s compliance with certain provisions of applicable laws and regulations that could
have a direct and material effect on its consolidated financial statements.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that Reclamation’s
consolidated financial statements are presented fairly, in all material respects, in conformity with
accounting principles generally accepted in the United States of America.

As discussed in Note 14 to the consolidated financial statements, the September 30, 2001 consolidated
balance sheet, consolidated statement of net cost, and consolidated statement of changes in net position
have been restated. Also, as discussed in Note 16 to the consolidated financial statements, Reclamation
implemented a change in accounting principle related to accounting for budgetary activity for allocation
transfers from other federal entities.

Our consideration of internal control over financial reporting resulted in the following conditions being
identified as reportable conditions:

A. Reclamation needs improved controls over its land inventory;
B. Reclamation needs improved security and internal control over its information technology systems;
C. Reclamation needs improved controls over its construction-in-progress and structures and facilities
   accounts;
D. Reclamation needs improved controls over its accrued liabilities;
E. Reclamation needs improved controls over its revenue cut-off;
F. Reclamation needs an improved quality control program; and
G. Reclamation needs improved controls over its accounting for intradepartmental transactions.

We consider reportable condition A, above, to be a material weakness.
                                                      1
The results of our tests of compliance with certain provisions of laws and regulations, exclusive of the
Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed no instances of
noncompliance with laws and regulations that are required to be reported herein under Government
Auditing Standards, issued by the Comptroller General of the United States, or Office of Management
and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

The results of our tests of compliance with FFMIA disclosed instances where Reclamation’s financial
management systems did not substantially comply with federal financial systems requirements and the
federal accounting standards.

The following sections discuss our opinion on Reclamation’s consolidated financial statements, our
consideration of Reclamation’s internal control over financial reporting, our tests of Reclamation’s
compliance with certain provisions of applicable laws and regulations, and management’s and our
responsibilities.

Opinion on the Consolidated Financial Statements
We have audited the accompanying consolidated balance sheets of Reclamation as of September 30, 2002
and 2001, the related consolidated statements of net costs for the years then ended, and the related
consolidated statement of changes in net position, combined statement of budgetary resources, and
consolidated statement of financing for the year ended September 30, 2002.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of Reclamation as of September 30, 2002 and 2001, its net costs for the
years then ended, and its changes in net position, budgetary resources, and reconciliation of net costs to
budgetary obligations for the year ended September 30, 2002, in conformity with accounting principles
generally accepted in the United States of America.

As discussed in Note 14 to the consolidated financial statements, the September 30, 2001 consolidated
balance sheet, consolidated statement of net cost, and consolidated statement of changes in net position
have been restated. Also, as discussed in Note 16 to the consolidated financial statements, Reclamation
implemented a change in accounting principle related to accounting for budgetary activity for allocation
transfers from other federal entities.

The information in the Management Discussion and Analysis, Required Supplementary Stewardship
Information, and Required Supplementary Information sections is not a required part of the consolidated
financial statements, but is supplementary information required by accounting principles generally
accepted in the United States of America or OMB Bulletin No. 01-09, Form and Content of Agency
Financial Statements. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we express no opinion on it.

Internal Control over Financial Reporting
Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters coming to
our attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting that, in our judgment, could adversely affect Reclamation’s ability to record, process,
summarize, and report financial data consistent with the assertions by management in the consolidated
financial statements.




                                                     2
Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the consolidated financial statements being audited, may
occur and not be detected within a timely period by employees in the normal course of performing their
assigned functions.

In our fiscal year 2002 audit, we noted the matters below involving internal control over financial
reporting and its operation that we consider to be reportable conditions. We believe that the reportable
condition A is a material weakness.

A. Reclamation needs improved controls over its land inventory

      Condition
     Reclamation’s fiscal year 2000 consolidated financial statement audit identified a weakness
     wherein Reclamation did not have a complete and accurate inventory system to support its $1.9
     billion of land and land rights reported in the consolidated financial statements as a component of
     general property, plant, and equipment. The weakness occurred because Reclamation had not
     established adequate procedures for maintaining an accurate inventory of land and land rights and
     for reconciling its subsidiary records with its financial accounting system. Reclamation’s financial
     accounting system support for land and land rights costs is detailed in a cost summary report that
     did not reconcile with subsidiary records, including individual project plat book maps, which
     contain data from individual land purchase contracts.

     In response to the fiscal year 2000 consolidated financial statement audit finding, Reclamation
     recognized the need for supporting records and issued a five-year action plan to develop a complete
     and accurate land inventory that supported the financial accounting system, issued interim
     guidelines and procedures for reconciling land records, and developed a schedule for completing
     the reconciliation within the five-year plan period. During fiscal year 2002, Reclamation issued a
     Reclamation Manual Supplement to provide policies and procedures for the valuation of land and
     land rights. Also during fiscal year 2002, Reclamation completed and issued the Land Verification
     and Reconciliation Process Handbook, which provides procedures for verifying and reconciling
     land and land right balances, and has performed oversight reviews at each of the regional offices on
     the progress of the reconciliation project. As of September 30, 2002, Reclamation believes that it
     will complete the plan within the five-year plan period.

      Recommendation
     We recommend that the Commissioner, Bureau of Reclamation:

           1. Complete the reconciliation of the financial accounting system support for lands and land
              rights costs with the subsidiary records, including individual project plat book maps,
              which contain data from individual land purchase contracts.

           2. Include a material land inventory system internal control weakness in Reclamation’s
              Federal Managers’ Financial Integrity Act (FMFIA) report to the Department of the
              Interior until resolved.




                                                   3
     Management Response
     A.1.      Concur. Reclamation will continue the reconciliation of the financial accounting system
               support for lands and land rights costs with subsidiary records, including individual
               project plat book maps in accordance with the 5-year corrective action plan. As of
               September 30, 2002, approximately 40 percent of the projects were reconciled.

               The responsible official is the Director, Operations. The target date for completing the
               reconciliation is September 30, 2005.

     A.2.      Concur. Reclamation included the land inventory material weakness in Reclamation’s
               Annual Assurance Statements on Management Controls for fiscal years 2000 through
               2002, and will continue to report this weakness until all corrective actions are
               implemented.

               The responsible official is the Director, Management Services. This material weakness
               will be reported each year until it is resolved.

B. Reclamation needs improved security and internal control over its information technology
   systems

     Condition
     Reclamation has made significant progress during the year by implementing and enhancing controls
     in several areas of information technology (IT) security and governance, including security
     programs, service continuity, application development, and logical access controls. However,
     certain IT security and controls over Reclamation’s financial management systems have not been
     fully implemented, and controls need to be improved in the areas described below, as required by
     OMB Circular A-130, Management of Federal Information Resources. These conditions could
     affect Reclamation’s ability to prevent and detect unauthorized changes to financial information,
     control electronic access to sensitive information, and protect its information resources.

       Segregation of Duties

       Proper segregation of duties should be governed by policies, procedures, and organizational
       structure to ensure that one individual cannot control key aspects of computer-related operations,
       and thereby conduct unauthorized actions or gain unauthorized access to assets or records.
       Reclamation has not fully addressed or maintained appropriate segregation of duties in certain
       aspects of computer-related operations.

       Access Controls

       Access controls should provide reasonable assurance that computer resources (data files,
       application programs, and computer-related facilities and equipment) are protected against
       unauthorized modification, disclosure, loss, or impairment. The objectives of limiting access are
       to ensure that (1) users have only the access needed to perform their duties; (2) access to very
       sensitive resources, such as security software programs, is limited to very few individuals; (3)
       application security configuration settings are sufficient to provide reasonable assurance that
       access to applications through user log-on cannot be easily compromised; and (4) network
       security configurations are optimized to provide reasonable assurance that computer resources
       (data files, application programs, and computer-related facilities and equipment) are protected
       against unauthorized modification, disclosure, loss, or impairment. Technical and procedural
       access controls over Reclamation’s network and certain financial applications have not been fully
       developed and implemented to minimize the risks of unauthorized access to network and systems.
                                                   4
     Recommendation
     We recommend that the Commissioner, Bureau of Reclamation:

            1. Continue implementation of its formal action plan to improve the security and general
               controls over the financial management systems. This plan should address each of the
               areas discussed above.

     Management Response
     B.1.      Concur. Reclamation will continue to implement its formal action plan to improve the
               security and general controls over financial management systems. Information
               technology security and internal control items identified in this audit will be added to and
               tracked in this action plan.

               The responsible manager is the Chief Information Officer. September 30, 2003 is the
               target date for addressing the financial system segregation of duties and access control
               issues identified in this audit.

C. Reclamation needs improved controls over its construction-in-progress and structures and
   facilities accounts

     Condition
     Reclamation did not sufficiently implement internal controls to ensure that the general ledger
     control account for construction-in-progress (CIP) was accurate. During our audit, we noted that the
     CIP account included costs that should have been expensed as incurred, and excluded other costs
     that should have been capitalized, which resulted in an understatement of CIP. These errors also
     impacted the structures and facilities accounts, which are also reported in the consolidated financial
     statements as part of general property, plant, and equipment, since CIP costs are transferred to
     structures and facilities upon completion of a project.

     In Reclamation’s fiscal year 2000 audit, the Office of Inspector General (OIG) reported a material
     weakness and a reportable condition related to Reclamation’s CIP account. Despite new policies
     and procedures established in response to the OIG finding, a reportable condition was reported in
     Reclamation’s fiscal year 2001 audit report as Reclamation continued to include in the CIP account
     $21.2 million in assets that should have been expensed as incurred.

     During fiscal year 2002, Reclamation continued the implementation of its policies and procedures
     to identify substantially complete CIP projects for timely transfer to the structures and facilities
     accounts. However, we found that of Reclamation’s five regions, one region continued to include
     $56.4 million in the CIP and structures and facilities account that should have been expensed, a
     portion of which should have been transferred to another federal entity, and improperly tracked
     contributions from other entities as an offset to CIP, resulting in a $10.8 million understatement.
     Another region improperly netted $29.8 million in costs against the CIP and structures and facilities
     accounts, thereby, reducing the balance, and another region did not record CIP of $19.1 million. We
     also noted that the regions did not consistently utilize the forms for transfer from CIP to structures
     and facilities, as required by Reclamation policy. Reclamation reviewed the account balances and
     transactions and made the necessary adjustments.




                                                    5
     Recommendation
     We recommend that the Commissioner, Bureau of Reclamation:

            1. Implement and follow existing Reclamation policies and procedures, including regional
               quality control procedures, to ensure that the CIP and structures and facilities accounts
               only include costs for items meeting the definition of capitalizable general property,
               plant, and equipment, and that costs which should be expensed are reported as such in the
               proper accounting periods.

     Management Response
     C.1.      Concur. Reclamation will implement and emphasize the need to adhere to Reclamation
               policies and procedures, including improving regional quality controls over the
               construction-in-progress processes, to ensure that the construction-in-progress account
               only includes costs meeting the definition of captializable general property, plant, and
               equipment, and that costs that should be expenses are reported in the proper accounting
               period in accordance with the guidance provided in the Reclamation Manual Supplement.

               The responsible official is the Director, Operations. The target date for implementing this
               recommendation is June 30, 2003.

D. Reclamation needs improved controls over its accrued liabilities

     Condition
     Reclamation did not sufficiently implement internal controls to ensure that the general ledger
     control accounts for accrued liabilities were complete and accurate. In response to the prior year
     reportable condition on controls over accrued liabilities, Reclamation has taken many steps to
     improve the process to ensure complete and accurate accrued liabilities. Reclamation has conducted
     regional training on the nature of accruals and the accounting requirements necessary to account for
     them. Reclamation has also created a standard form to facilitate the reporting of the accruals by the
     regional offices. The form, if properly completed, facilitates documentation of the necessary
     information and support. Finally, Reclamation developed procedures and provided them to the
     regional offices for reporting accruals.

     Although these steps are appropriate, they are not sufficient to ensure that the accruals are complete
     and accurate. During Reclamation’s fiscal year 2002 consolidated financial statement audit, we
     noted exceptions related to improper or incomplete accruals at each regional office. Issues that were
     identified included: (1) necessary accruals not made in the current fiscal year; (2) necessary
     accruals not made in prior fiscal years; and (3) improper accruals made for balances relating to
     subsequent fiscal years. These issues resulted in misstatements of $16.6 million. Improved
     coordination with the program organization is considered essential, as the program personnel are
     the most knowledgeable on the status of the current contracts.

     We also noted through our testing that supporting documentation for the accrual could be improved.
     We noted inconsistencies between regional offices in estimating accruals as some were calling
     vendors and others did trend analysis. While both methods provide acceptable estimates,
     consistency is important when estimating accrued liabilities.




                                                    6
Additionally, during our testing of employee benefit accruals, we noted the accrued annual leave
was understated by approximately $9 million in fiscal year 2002. The understatement related to
inadequate accrual calculations for annual leave associated with the working capital fund.
Reclamation reviewed the account balances and transactions and made the necessary adjustments.

Recommendation
We recommend that the Commissioner, Bureau of Reclamation:

       1. Implement additional controls to ensure that accruals are complete, exist, are accurately
          recorded, and are adequately supported by documentation.

       2. Implement oversight procedures to ensure compliance with current Reclamation policies
          and procedures to improve coordination within Reclamation’s finance and program
          organizations.

       3. Improve Reclamation’s policies and procedures for accruals to specify additional
          procedures necessary to ensure complete and accurate accruals.

Management Response
D.1.      Concur. Reclamation will implement additional quality controls to ensure the
          completeness, existence, and accuracy of accruals. To improve the complete and accurate
          reporting of accrued liabilities, Reclamation has formed a multi-disciplinary “Accrual
          Team” to identify and define the essential steps that need to be taken to improve the
          accrual process.

           The responsible official is the Director, Operations. The target date for developing
           additional quality controls is April 30, 2003. The target date for implementing the
           additional quality controls is September 30, 2003.

D.2.       Concur. Reclamation will implement oversight procedures to ensure compliance with
           current Reclamation policies and procedures. Reclamation will analyze and modify, as
           necessary, its current post-closing automated program to test disbursements made
           subsequent to year-end, for which a liability had not been recorded.

           The responsible official is the Director, Management Services. The target date for
           developing additional oversight procedures is April 30, 2003. The target date for
           implementing oversight procedures is September 30, 2003.

D.3.      Concur. Reclamation will improve its policies and procedures for accruals to specify
          additional procedures, as necessary, to ensure complete and accurate accruals.

           The responsible official is the Director, Management Services. The target date for
           implementing additional procedures is September 30, 2003.




                                              7
E. Reclamation needs improved controls over its revenue cut-off

     Condition
     Reclamation did not have sufficient internal controls to ensure that the general ledger control
     account for revenue was complete. During our audit, we noted that Reclamation made entries in
     fiscal year 2003 for $9.7 million of revenue that should have been made for fiscal year 2002. These
     errors are a result of insufficient regional quality control reviews and management oversight.
     Reclamation reviewed the account balances and transactions and made the necessary adjustments.

     Recommendation
     We recommend that the Commissioner, Bureau of Reclamation:

            1. Establish and implement sufficient internal controls, including regional quality control
               reviews and management oversight, to ensure that the revenue cut-off entries are
               complete.

     Management Response
     E.1.      Concur. Reclamation will implement sufficient internal controls, including regional
               quality control reviews and management oversight, to ensure the revenue cut-off entries
               are complete.

               The responsible official is the Director, Operations and the Director, Management
               Services. The target date for developing additional revenue control procedures is
               April 30, 2003. The target date for implementing these procedures is September 30, 2003.

F. Reclamation needs an improved quality control program

     Condition
     Reclamation’s fiscal year 2001 consolidated financial statement audit identified a control weakness
     wherein Reclamation did not have a sufficient quality control program to ensure that Reclamation
     Manual Supplements were completely and consistently implemented by the regional offices.
     Reclamation Manual Supplements establish accounting policies and procedures based on
     authoritative criteria, and are created by the Finance and Accounting Division, of the Management
     Services Office of Reclamation. However, the Finance and Accounting Division did not have
     procedures to ensure that the Reclamation Manual Supplements were fully and consistently
     implemented.

     During fiscal year 2002, in response to the fiscal year 2001 consolidated financial statement audit
     finding, the Finance and Accounting Division started making compliance reviews of the regional
     office’s progress on the land inventory reconciliation discussed in reportable condition A.
     Additionally, Reclamation has developed a plan for implementation of additional reviews and other
     procedures to be completed by the Finance and Accounting Division to address this weakness
     during fiscal year 2003.




                                                  8
     Recommendation
     We recommend that the Commissioner, Bureau of Reclamation:

            1. Continue to implement a practice whereby Reclamation’s policymaking body has
               authority to ensure compliance with the Reclamation Manual Supplements among the
               regions.

            2. Continue to establish procedures to address the completeness, accuracy, and consistency
               of implementation of Reclamation Manual Supplements among the various regional
               offices.

     Management Response
     F.1.      Complied. Reclamation’s Finance and Accounting Division was authorized and
               delegated responsibility for the financial oversight function in fiscal year 2002.
               Reclamation developed a Financial Management Plan that provides a process for
               continuously improving the accountability, efficiency, and effectiveness of Reclamation’s
               financial processes and has among its objectives ensuring financial policy is developed,
               implemented, and applied consistently.

     F.2.      Concur. A draft Financial Oversight Plan was developed in fiscal year 2002 and will be
               finalized in fiscal year 2003. The Financial Oversight Plan establishes a process to
               evaluate the effectiveness of internal controls for financial management, the reliability
               and validity of Reclamation’s financial information, and implementation of Reclamation
               Manual Supplements. Fiscal year 2002 improvements included a review of the land
               inventory reconciliation process, quarterly variance analyses of general ledger accounts,
               and reviews of construction-in-progress, investigations and development, accruals,
               undelivered orders, and allowance for doubtful accounts.

               The responsible official is the Director, Management Services. The target date for
               finalizing the Financial Oversight Plan is April 30, 2003. The target date for
               implementing the Financial Oversight Plan is September 30, 2003.

G. Reclamation needs improved controls over its accounting for intradepartmental transactions

     Condition
     As part of its reporting process, Reclamation is required to reconcile intradepartmental transactions
     between other Department of the Interior bureaus (referred to as “trading partners”). As of
     November 5, 2002, Reclamation had differences with other Department of the Interior bureaus
     totaling $81.4 million. Reclamation made correcting entries to its consolidated financial statements
     for $30.7 million subsequent to November 5, 2002 to reconcile with other bureaus. Differences
     within Reclamation accounts and with trading partners indicate misstatements in financial reporting
     at both the bureau and department levels.




                                                   9
      Differences within Reclamation accounts and between trading partners are currently identified
      through a manual process, which includes entering transaction data into the Department of the
      Interior’s financial reporting system (Hyperion). This information is accessible by all Department
      of the Interior bureaus. Although the information is entered into Hyperion throughout the year,
      differences are not reconciled and resolved in a timely manner, with the majority of reconciliations
      occurring at year-end and requiring a significant amount of accounting staff resources. As timelines
      for financial reporting continue to be expedited, manual processes and lack of accurate and timely
      trading partner data may impact Reclamation’s ability to prepare reliable consolidated financial
      statements in a timely manner.

      During the year, Reclamation has devoted additional resources to identify and correct out of
      balance intragovernment differences, and it has improved its processes to standardize the data
      provided to other bureaus, provide detail more frequently, and request more information as needed
      from other bureaus. However, the process continues to be informal, manual, and dependent on the
      cooperation of other agencies.

      Recommendation
      We recommend that the Commissioner, Bureau of Reclamation:

             1. In conjunction with the Department and other Department of the Interior bureaus, should
                automate the process to reconcile and correct differences in intrabureau and trading
                partner transactions. The process should be governed by formal policies and procedures.

             2. Until formal and automated processes are implemented, Reclamation should continue to
                improve its manual process to reconcile and resolve differences. The reconciliation
                process should be completed quarterly and include procedures to resolve and record
                differences in a timely manner.

      Management Response
      G.1.      Concur. Subject to the Department’s guidance and direction. Reclamation will
                participate in the Department’s efforts to automate the process for accounting for intra-
                departmental transactions and to develop formal policies and procedures for reconciling
                and correcting intrabureau and trading partner variances.

                The responsible official is the Director, Management Services. The target date is subject
                to the Department’s timeframes for developing and implementing an automated process
                and formal policies and procedures for accounting for intradepartmental transactions.

      G.2.      Concur. Reclamation will continue to improve the process for reconciling and resolving
                intradepartmental differences.

                The responsible official is the Director, Management Services. The target date for
                implementing an improved process is April 30, 2003.

A summary of the status of prior year reportable conditions is included as Exhibit I. We also noted other
matters involving internal control over financial reporting and its operation that we have reported to the
management of Reclamation in a separate letter dated December 6, 2002.




                                                   10
Compliance with Laws and Regulations
Our tests of compliance with certain laws and regulations, as described in the Responsibilities section of
this report, exclusive of the FFMIA, disclosed no instances of noncompliance with laws and regulations
that are required to be reported under Government Auditing Standards and OMB Bulletin No. 01-02.

The results of our tests of the FFMIA disclosed instances in which Reclamation’s financial management
systems did not substantially comply with the federal financial management systems requirements and
with the federal accounting standards, and are described below.

      Condition
      Reclamation is not in compliance with OMB Circular A-130, Management of Federal Information
      Resources. As discussed in reportable condition B above, we noted weaknesses in Reclamation’s
      computer security controls, including segregation of duties, access controls, and network security.

      Recommendation
      Our recommendations are addressed in the reportable condition discussed in the Internal Control
      over Financial Reporting section of our report.

      Condition
      Reclamation is required to prepare its consolidated financial statements in accordance with federal
      accounting standards. As discussed in reportable condition A above, we identified material
      weaknesses that affected Reclamation’s ability to prepare its consolidated financial statements and
      related disclosures in accordance with federal accounting standards. Specifically, we determined
      that Reclamation needs improved controls over its land inventory.

      Recommendation
      Our recommendations are addressed in the reportable condition discussed in the Internal Control
      over Financial Reporting section of our report.

The results of our tests of FFMIA disclosed no instances in which Reclamation’s financial management
systems did not substantially comply with the United States Standard General Ledger at the transaction
level.

Responsibilities
      Management’s Responsibilities
      The Government Management Reform Act of 1994 (GMRA) requires each federal agency to report
      annually to Congress on its financial status and any other information needed to fairly present its
      financial position and results of operations. To assist the Department of the Interior in meeting the
      GMRA reporting requirements, Reclamation prepares annual consolidated financial statements.

      Management is responsible for:

        •   Preparing the consolidated financial statements in conformity with accounting principles
            generally accepted in the United States of America;
        •   Establishing and maintaining internal controls over financial reporting, and preparation of the
            Management’s Discussion and Analysis (including the performance measures), required
            supplementary information, and required supplementary stewardship information; and
        •   Complying with laws and regulations, including FFMIA.


                                                    11
        In fulfilling this responsibility, estimates and judgments by management are required to assess the
        expected benefits and related costs of internal control policies. Because of inherent limitations in
        internal control, misstatements, due to error or fraud, may nevertheless occur and not be detected.

Auditors’ Responsibilities
Our responsibility is to express an opinion on the consolidated financial statements of Reclamation based
on our audits. We conducted our audits in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in Government Auditing
Standards and OMB Bulletin No. 01-02. Those standards and OMB Bulletin No. 01-02 require that we
plan and perform the audits to obtain reasonable assurance about whether the consolidated financial
statements are free of material misstatement.

An audit includes:

    •     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
          financial statements;
    •     Assessing the accounting principles used and significant estimates made by management; and
    •     Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2002 audit, we considered Reclamation’s internal control over
financial reporting by obtaining an understanding of Reclamation’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin No. 01-02 and Government Auditing Standards. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to provide assurance on internal control over
financial reporting. Consequently, we do not provide an opinion thereon.

As required by OMB Bulletin No. 01-02, we considered Reclamation’s internal control over required
supplementary stewardship information by obtaining an understanding of Reclamation’s internal control,
determining whether these internal controls had been placed in operation, assessing control risk, and
performing tests of controls. Our procedures were not designed to provide assurance on internal control
over required supplementary stewardship information, and accordingly, we do not provide an opinion
thereon.

As further required by OMB Bulletin No. 01-02, with respect to internal control related to performance
measures determined by management to be key and reported in the Management Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertions. Our procedures were not designed to provide assurance on internal
control over performance measures, and accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether Reclamation’s fiscal year 2002 consolidated
financial statements are free of material misstatement, we performed tests of Reclamation’s compliance
with certain provisions of laws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts, and certain provisions of other laws
and regulations specified in OMB Bulletin No. 01-02, including certain provisions referred to in FFMIA.
We limited our tests of compliance to the provisions described in the preceding sentence, and we did not
test compliance with all laws and regulations applicable to Reclamation. Providing an opinion on
compliance with laws and regulations was not an objective of our audit, and accordingly, we do not
express such an opinion.
                                                     12
Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether Reclamation’s financial
management systems substantially comply with (1) federal financial management systems requirements,
(2) applicable federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

Distribution
This report is intended for the information and use of Reclamation’s management, Department of the
Interior’s Office of the Inspector General, OMB, and the U.S. Congress, and is not intended to be and
should not be used by anyone other than these specified parties.




January 11, 2003




                                                 13
                                                                                      Exhibit I

          U.S. Department of the Interior – Bureau of Reclamation
    Summary of the Status of Fiscal Year 2001 Findings and Recommendations
                           As of September 30, 2002


Ref     Condition Area                                            Status
A       Reclamation needs improved security and          Reclamation has made
        internal control over its information            significant progress in
        technology systems.                              addressing this
                                                         condition and as a result,
                                                         although the condition is
                                                         repeated in FY 2002, it
                                                         is no longer considered
                                                         a material weakness.
B       Reclamation needs improved controls over         Reclamation is in the
        its land inventory.                              second year of
                                                         implementing a five-
                                                         year corrective action
                                                         plan, which is scheduled
                                                         for completion in FY
                                                         2005. As a result, this
                                                         condition has not been
                                                         corrected and is
                                                         considered a repeat
                                                         condition in FY 2002.
C       Reclamation needs improved controls over         This condition has not
        its construction-in-progress.                    been corrected and is
                                                         repeated in FY 2002.
D       Reclamation needs improved controls over         This condition has been
        accounting for investigations and                corrected.
        development costs.
E       Reclamation needs an improved financial          This condition has been
        reporting process related to its allowance for   corrected.
        doubtful loans receivable account.
F       Reclamation needs improved controls over         This condition has been
        its allowance for doubtful accounts              corrected.
        receivable account.
G       Reclamation needs improved controls over         This condition has not
        its accrued liabilities.                         been corrected and is
                                                         repeated in FY 2002.




                                           14
Ref   Condition Area                                      Status
H     Reclamation needs improved controls over   This condition has been
      trust revenue recognition.                 corrected.
 I    Reclamation needs an improved quality      In response to the FY
      control program.                           2001 finding,
                                                 Reclamation set a target
                                                 date of September 30,
                                                 2003 for implementation
                                                 of its oversight program.
                                                 As a result, this
                                                 condition has not been
                                                 corrected and is repeated
                                                 in FY 2002.
 J    Reclamation needs improved controls over   This condition has been
      its accounting for undelivered orders.     corrected.




                                      15
              ATTACHMENT 2




JAN 15 2003
